                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A11040023                                                                        Page 1 of 1



                 We received an allegation of data fabrication and falsification involving a student's research
         advisor and an NSF proposal. 2 When we contacted the university3 for additional information, we
                   1

         learned that the original allegations were against the student,4 and that the university was already
         conducting an inquiry with both the student and the advisor as subjects. Subsequently, the university
         concluded that an investigation was warranted only with respect to the student. We concurred and
         referred the investigation to the university.

                The university completed its investigation, during which the student was non-responsive to
         requests for information. The university concluded that the student had committed intentional
         research misconduct and that he was solely responsible for it. The university formally expelled the
         student who was believed to have already left the U.S.

                 We reviewed the university report and concurred that the evidence supported a finding of
         intentional research misconduct. We prepared a report of investigation (attached) for NSF,
         recommending: a letter of reprimand with a findings of research misconduct; responsible conduct of
         research training; and a 5-year debarment, followed by a 5-year ban from serving NSF as a reviewer,
         advisor or consultant and 5 years of certifications and assurances. NSF accepted our
         recommendations (attached).

                   Accordingly, this case is closed.




         2


         4




NSF OIG Form 2 (11/02)
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re: Notice of Debarment




On             ,2013, the National Science Foundation (''NSF") issued to you a Notice of
Proposed Debarment and Notice of Research Misconduct Determinatimi ("Notice"), in which
NSF proposed to debar you from directly or indirectly obtaining the benefits of Federal grants
for a period of five       As reflected in the Notice, NSF proposed your debarment because, as
a student at the                          you falsified and fabricated data and results that were
incorporated with your knowledge into a proposal that was submitted to ~SF. In that Notice,
NSF provided you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until           , 2018.

Debarment precludes you from receiving Federal fmancial and non-fmancial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a deterillination to grant an exception in accordance with 2 CFR
180.135. Non-procurement transactions include grants, cooperative agreements, scholarships, -
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and. donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment. 2
CFR 180;925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                             - 2 -

Lastly, please note that, in the Notice, NSF also took the following actions against you, which
continue to remain in effect:

   •    From the end of your debarment period through              , 2023, you are required to
        submit certifications to NSF's Office of Inspector General that any proposals or reports
        you submit to NSF do not contain plagiarized, falsified, or fabricated material.

    •    From the end of your debarment period through               ,2023, you are required to
          submit assurances by a responsible official of your employer that any proposals or reports
         you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
        · assurances must be submitted to NSF's Office of Inspector General.

    •   You are prohibited from serving as an NSF reviewer, advisor, or consultant through
                  , 2018; and

    •   You are required to complete a comprehensive responsible conduct of research training
        course by             ,2014, and provide documentation of the program's content to the
        OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of data fabrication and falsification.
        [Please note that the           , 2013, Notice erroneously indicated that you were
        required to complete a course covering plagiarism and proper citation practices].

All certifications, assurances, and training documentation should be submitted in writing to
NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
VA 22230.

Should you have any questions regarding the foregoing, please c o n t a c t - Assistant
General Counsel, at (703) 292-8060.




                                                       Sincerely,


                                                   ~ift{~~
                                                       FaeKorsmo
                                                       Senior Advisor
                                  NATIONAL SCIENCEFOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




       Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination




As a student at the                            ("University"), you falsified and fabricated data and
results that were incorporated with your knowledge into a proposal that was submitted to NSF.
In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
from directly or indirectly obtaining the benefits of Federal grants for five years. During your
period of debarment, you will be precluded from receiving Federal fmancial and non-fmancial
assistance and benefits under non-procurement Federal programs and activities. In addition, you
will be prohibited from receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR"). During your debarment period, you will be barred
from having supervisory responsibility, primary management, substantive control over, or
critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government

In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
advisor or consultant to NSF until            , 2018. Furthermore, for five years from the
expiration of your debarment period, I am requiring that you submit certifications, and that a
responsible oftl.cial of your employer submit assurances, that any proposals or reports you submit
to NSF do not contain plagiarized, falsified, or fabricated materiaL Lastly, you must complete a
comprehensive responsible conduct of research traimng course by                , 2014, and provide
documentation of the program's content to the OIG. The instruction should be in an interactive
format (e.g., an instructor-led course, workshop, etc.) and should include a discussion of
plagiarism and proper citation practices.
                                                                                           Page2
Research Misconduct and Administrative Actions other than Debarment

Under NSF's regulations, "research misconduct" is defmed as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

You falsified and fabricated data and results using cut-and-paste and white-out manipulations
related to the NMR spectrum and HPLC chromatograms for individual compounds. Your
conduct unquestionably constitutes falsification and fabrication. I therefore conclude that your
actions meet the applicable definition of"research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR § 689 .2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
falsification and fabrication was committed intentionally and constituted a significant departure
from accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF.; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed intentionally; the fact
that your actions were part of a pattern of misconduct and the impact of your actions tainted both
                                                                                            Page 3
the reputations of your former advisor as well as your former institution; and that you engaged in
this misconduct despite having taken departmentally required responsible conduct or research
training, been party to informal discussions among your research group regarding publicized
cases of research misconduct and served as a teaching assistant in a course that covered
responsible conduct of research materiaL Based on the foregoing, I am imposing the following
actions on you:

   •    For five years from the end of your debarment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified, or fabricated material.

    •   For five years from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.

    •   From the date of this letter through           , 2018, you are prohibited from serving as
        an NSF reviewer, advisor, or consultant.

    •   You are required to complete a comprehensive responsible conduct of research training
        course by           , 2014, and provide documentation of the program's content to the
        OIG. The instruction should be in an interactive fo:nnat (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of plagiarism and proper citation
        practices.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.

Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

        (b)     Violation of the terms of a public agreement or transaction so serous as to affect
                the integrity of an agency program, such as -

                (1)    A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions;


                (3)    A willful violation of a statutory or regulatory provision or requirement"
                       applicable to a public agreement or transaction; or
                                                                                               Page4
       (d)     Any other cause of so serious or compelling a nature that it affects your present
               responsibility.


In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you intentionally falsified data
and fabricated results' that appeared in publications that were integral to the proposal's scientific
merit. Thus, your action supports a cause for debarment under 2 CFR 180.800(b) and (d).

Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
J 80.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment for five
years.
                                                                                                        . i

Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment

Appeal Procedures for Finding of Research Misconduct

Under NSF's regulations, you have 3 0 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy of the applicable regulations.                             .

Procedures .Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. IfNSF does not
receive a response to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9 .4.
                                                                                      Page 5
Should you have any questions about the foregoing, please c o n t a c t - Assistant
General Counsel, at (703) 292~.                                          .



                                                Sincerely,




                                                FaeKorsmo
                                                Senior Advisor



Enclosures:
fuvestigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
             SENSITIVE                                                                                        SENSITIVE




                      National Science Foundation
                       Office of Inspector General




                                 . Report of Investigation
                                 Case Number A11040023
                                              March 29, 2013

                                      ,·.This Rep~rt'~r Itivestig~tihllis provid~d t~ y()u 0 •
                                     . .· . . FOROFFICW USE ONLY.
                                      .                                                  ·.· .
----u·:-It-ct>ntams proh~~ted persoiial inform~tion, t1ie ~maut1lonzed ais~losureofWliic1i m~yresultin•
           • p~rsonalcrip:rimilliability.l1.nderthePrivacy.Act,5U~S,C.§ 552a~ ·.Thisrepor(maybe furtlier
             disclosed. witJ:rin NSfonlyte> ..iridiViduals ··who ,.11Z~t lJ..C!:Y~· k:nowledge . <>f tts·.·.qont~nts·to .
              'facilitate' NSF.' s assessment •and .resolution 9r tlllS Illatter. This .report may be disclosed
               outside.NSF opiy iinder the :Freedom o{Infotmation and l)rivacy Acts, 5 U.§.C. ·§§ 5?.2.&
               ·.554a. Please take approprilite 'precautions handling tbisreport ofjnvest~gation. :. ·. · . ..

                                                                                                    NSF OIG Form 22b (1/13)
SENSITIVE                                                                    SENSITIVE


                                    Executive Summary

Allegation:         Falsification and fabrication of data submitted in an NSF proposal.

Inquiry:            The University inquiry found sufficient evidence to warrant a detailed
                    investigation of falsification and fabrication of data by a student (Subject).
                    The Subject had provided data to his advisor who included it in an NSF
                    proposal, an NIH proposal, and two publications. The Subject made a
                    counter-allegation against his advisor (Advisor). The University inquiry
                    found no evidence to support an allegation of research misconduct against
                    the Advisor. We concurred with the University and referred the
                    allegations against the Subject for a detailed investigation.

University          At the time the University conducted an investigation, the Subject had left
Investigation and   the University and did not respond to attempts to obtain his comments or
Action:             testimony. The University concluded that the Subject intentionally
                    falsified and fabricated data in 2 papers, 2 proposals, and presentations.
                    Specifically, the Subject provided the data to his advisor for the NSF
                    proposal with the knowledge that it was important to obtaining funding for
                    the Subject's salary.

OIG's               •    The Act: The Subject falsified and fabricated data and results with
Assessment:              the knowledge that the data would be submitted by his advisor in a
                         NSF proposal to secure funding for the Subject's continued work.
                    •    Significant Departure: The falsification was a significant departure
                         from the accepted practices of the relevant research community.
                    •    Intent: The Subject acted intentionally (i.e., purposefully).
                    •    Standard of Proof: The preponderance of evidence supports a
                         finding of research misconduct.
                    •    Pattern: The Subject's actions constitute a pattern of misconduct.

OIG                  •   A finding of research misconduct.
Recommendation:      •   A letter of reprimand.
                     •   Require ethics training within 1 year of the finding.
                     •   Debar the Subject for 5 years.
                     •   For 5 year after the debarment period:
                            • Bar from participating as a reviewer, advisor, or consultant.
                            • Require certifications.
                            • Require assurances.




                                                                                                     1
SENSITI;VE                                                                                  SENSITNE


                                                OIG's Inquiry

        We received from several sources forwarded copies of an email 1 that a graduate student
at a university (University) 2 had distributed to numerous individuals. In the email the graduate
student alleged that his advisor (Advisor) 3 committed research misconduct in proposals by
knowingly using fabricated and falsified data in a NSF proposal (NSF Proposal) 4 and a NIH
proposal (Nlli Proposal). 5

         Subsequently, we learned from the University research integrity officer (RI0) 6 that the
student's email was a counter-allegation to allegations against the student (Subject) 7 involving
falsification and fabrication of data published in two articles (Paper 1 8 and Paper 2 9). These
articles were reported as preliminary results in the two proposals. Because the University was
already conducting an inquiry, we referred the matter to the University to assess the allegations
against both the Subject and the Advisor. 10

                                        The University's lnguiry 11

        The RIO conducted an inquiry under the University's academic misconduct policy and
procedures. 12 The allegations included falsification and fabrication of nuclear magnetic
resonance (NMR) spectra and high pressure liquid chromatography (HPLC) data in a synthesis
project. The Advisor and the Subject published the data in two articles and presented them at
multiple venues. The Advisor also submitted the data in the NSF Proposal (withdrawn) and the
Nlli Proposal.

        The RIO interviewed four individuals, including the Advisor; however, the Subject was
non-responsive to requests for an interview. The Subject's only response to the allegations
against him consisted of three emails submitted during the RIO's initial assessment of the
allegation. 13 The Subject did not deny the allegation but alleged misconduct by the Advisor.
The RIO concluded there was sufficient evidence to warrant a detailed investigation only with

1
 Tab 6 at 146. Throughout this report we refer to the OIG generated page numbers, which are in the lower right
comer of the document preceded by the case number. The page numbering is sequential from Tab 1 through
Tab 20.
2




                       Referral Letter.
11
   Tab 2, University Inquiry Report.
12
   Tab 4, Academic Misconduct Policy.
13
   Tab 6 at 112- 211. One of these emails was the initial email we received containing the allegation against the
Advisor.


                                                                                                                    2
SENSITIVE                                                                       SENSITIVE


respect to the Subject. 14 The deciding official (DO) 15 concurred and the University investigation
commenced. 16

        The inquiry report noted that the Advisor had discussed the allegations with his group
members at his Friday group meeting before the formal University procedure commenced. He
solicited their assistance in reviewing the Subject's data files and printouts. Earlier that day, the
Advisor met with the Subject, another student (Student), 17 and the departmental graduate
program director (Director). 18 During this meeting the Advisor confronted the Subject with an
explicit allegation of research misconduct corroborated by the Student. The Subject admitted to
the misconduct, and the Director indicated that the Subject could leave the program voluntarily
or be expelled. The Subject turned in his key to the lab and had supervised access the following
Monday to retrieve personal items. Although the Director was aware of the allegation, there was
no formal allegation made until the department chairman (Chair) 19 independently learned ~fthe
situation from another student in the Advisor's lab and initiated the University process.

         The Advisor's subsequent review of the Subject's papers revealed an employment offer
letter to the subject and "the discovery of photocopied printouts in [the Subject's] desk of data
that had been cut and pasted." 20 The Advisor's retention and review of the data raises some
concerns with respect to the appropriate and timely sequestration of evidence, in part because the
Advisor was the subject of a counter-allegation.

       Despite our concerns, we found sufficient substance to warrant an investigation of the
Subject's actions and referred an investigation to the University. 21 Our referral did not preclude
the University from considering additional individuals, including the Advisor, as potential
subjects if the evidence warranted their inclusion.

                                     The University's Investigation 22

        The University appointed an ad hoc investigation committee (IC) and conducted an
                                                 23
investigation under its policies and procedures. The IC reviewed and considered: hard-copy
and electronic records of the data; the Subject's laboratory notebooks; email correspondence; the
affected journal articles and proposals; and testimony of four witnesses interviewed during the
inquiry phase, two of whom were interviewed again during the investigation. The Subject did
not respond to the IC's requests for an interview and was non-responsive throughout the
investigation process.




14
     Tab 6 at 96-97.
15




           report, page
21
   Tab 3, OIG Investigation Referral Letter.
22
   Tab 5, The University's Investigation Report and Appendixes.
23
   Tab 4.


                                                                                                      3
SENSITIVE                                                                     SENSITIVE


                                          Background24

        Through interviews, the Committee learned that the Subject "is a talented chemist who is
a source of knowledge for others in the laboratory." 25 The Subject significantly contributed to
earlier publications, which after review by the Advisor's group showed no indication of
misconduct. They determined the Subject received training in the responsible conduct of
research through a course in his department. The Advisor used lab group meetings that both the
Subject and Student attended to discuss research misconduct cases in the news. The Subject was
also a teaching assistant in the Advisor's class in which data falsification and fabrication were
discussed.

       The Committee found that the Subject had the "talent to complete the synthesis in a
legitimate fashion" but chose to take actions which would help him graduate more quickly. 26
The Advisor and the Student surmised that the Subject faced financial and familial pressures to
graduate and move to a waiting industrial position. A letter from an industrial firm found by the
Advisor's group after the Subject left the lab confirms that the Subject had an offer with an
expected start-date of 30 May 2011. 27 The offer was contingent upon the Subject's completing
his degree program and maintaining his GPA. The Subject's signature appears on the acceptance
form with a date of2 February 2011. 28

       The allegations involve two types of data, NMR spectra and HPLC chromatograms, the
Subject reported as experimental confirmation of the chemical structures he claimed to have
made. The Subject's work focused on developing synthetic procedures intended to favor
formation of one enantiomer over another. Enantiomers are compounds which have the same
atoms linked in the same way but in differing three-dimensional orientations, often referred to as
non-super-imposable mirror images (Figure 1). In general, the NMR spectra primarily
confirmed the atom linkages, and the HPLC chromatograms differentiated between the three-
dimensional orientations.




24
   Generally, Tab 5 at 57- 58.
25
   Tab 5 at 64.
26
   Tab 5 at 64-65.
27
   Tab 20 at 2118.
28
   Tab 20 at 2121.


                                                                                                 4
SENSITIVE                                                                               SENSITIVE




                         Figure 1. Enantiomers: Three-dimensional orientations
                         reflected through a mirror that cannot be superimposed when
                         rotated around an axis. 29

Natural processes in plants and other biological systems often favor production of one
enantiomer over another, whereas laboratory preparations typically result in racemic (50:50)
mixtures of enantiomers. It is a goal of many research efforts, such as the Advisor's and
Subject's, to develop conditions which selectively produce high yields of a single enantiomer,
measured as the enantiomeric excess (ee ). These efforts can have significant importance in
fields, such as pharmaceutical development, because different enantiomers often have different
biologicial effects. Where one enantiomer may be an effective antibiotic, the other may have no
effect at all.

                                      Discovery o(the Misconduct 30

       In their respective interviews, the Advisor and Student described a series of events
beginning in June 2010 during which the Subject admitted that he fabricated data because he did
not have enough time to complete the project. 31 Subsequently, the Advisor gave the Subject a
second chance to complete the project. 32 Sometime in the following two months the Subject
reported a good result on the project but declined to present his findings at a large national
professional meeting. The Advisor and the Student planned to attend the meeting, and it was
decided that the Advisor would present the Subject's new results.

       The Advisor directed the Student to replicate the Subject's new result before the national
meeting. However, the Student was unable to do so, because one of the reagents for the
procedure was missing. The Student ultimately located it outside of the refrigerator where it
should have been stored to prevent decomposition. The Student attempted the synthesis with the
reagent anyway, but the procedure failed. The Subject also repeated the synthesis side-by-side
with the Student without success. Therefore, the Advisor chose not to present the Subject's new

29
   Adapted from A. Streitwieser, Jr. and C.H. Heathcock, Introduction to Organic Chemistry, Macmillan, 1976, New
York, page 105-106.
30
   Generally, Tab 5 at 57- 58; and Tab 15.
31
   Tab 5 at 58.
32
   Tab 5 at 66, Tab 15 at 1872 and 1928.


                                                                                                              5
SENSITIVE                                                                     SENSITIVE


result at the meeting. When the Advisor and Student returned from the meeting, the Subject
showed the Advisor an NMR spectrum showing that the reagent had decomposed. The Subject
continued the project using a new reagent suggested by the Advisor.

        In October 2010 the Subject reported new successful results. This coincided with the
preparation of the NSF Proposal and the NIH Proposal. The Advisor asked the Student to repeat
the Subject's results. The Student obtained a product according to the Subject's procedure which
was confirmed by NMR to have the desired atom linkages. However, the Student had to rely on
the Subject's assistance with the HPLC because he was the only group member with experience
in running it. When the HPLC chromatogram indicated the run conditions for the ee
determination for a standard sample were incorrect, the Subject worked alone to correct the
conditions. Ultimately the Subject produced a chromatogram that he presented to the Advisor
and Student demonstrating a 99% ee for the desired enantiomer. The Advisor and Student both
agreed that they supported the 99% ee result. The Advisor then incorporated the data into the
proposals for submission in November.

        The Student provided the Subject with four other samples for the HPLC for which the
Subject returned results that were "too good to be true." 33 The Student decided to repeat the
work independently, including the HPLC which he had by that time learned to run. When he
told the Subject about his intentions, the Subject suggested that the Student use alternate methods
which would preclude using the standard HPLC method for determining the ee. The Student
rejected these approaches.

        When the Student set out to do the synthesis, he found the stock supply of a necessary
reagent was depleted. It was a reagent that the Subject used frequently and typically reordered
before the supply was exhausted. The Subject placed an order for the reagent at the Student's
request causing a delay such that the Student was not able to begin the synthesis until two days
                                                                           34
before the Subject presented "outstanding" results at a lab group meeting. The Subject
presented a high ee value (99%) to the group. Approximately one week later, the Student
reported his result (24% ee) to the Advisor. The Advisor and Student met with the Subject to ask
why there was such a large difference in ee (24% versus 99%). After initially offering possible
scenarios, the Subject admitted to fabrication. The next day the Advisor, Student, and Subject
met with the Director as described above.




33
     Tab 15 at 1876.
34
     Tab 15 at 1877.


                                                                                                  6
SENSITNE                                                                        SENSITNE


                                             Findings

        The IC addressed the Subject's conduct under five categories based on the where the
alleged falsified and fabricated data were used: 1) in Paper 1; 2) in Paper 2; 3) in the NIH
Proposal; 4) in the NSF Proposal; and 5) at conferences. The allegations involved data originally
published in Paper 1 and Paper 2 and subsequently used as preliminary results in the NSF and
NIH proposals as well as the conference presentations. The IC's analysis follows this
chronology. Although neither publication was a result of federally-funded research, the
publications, the NIH Proposal, and the presentations are relevant to our assessment of pattern.
Under each of the categories the IC addressed the NMR spectra and HPLC data separately.

        Paper 1. 35 The Committee determined that the Subject was the primary person who
conducted the study reported in 2010 in Paper 1. A competing research group had published a
less efficient process with only a moderate ee, and the Advisor recommended broadening the
range of compounds in the Subject's study to increase the likelihood of publication. As a result,
the Subject conducted additional work which led to Table 2 in the paper, where much of the
affected data are summarized. The Supplemental Information referenced in the paper and
available online included copies of the supporting spectra and chromatograms.

        The Subject prepared all of the spectra, chromatograms, and quantification tables in the
Supporting Information for the paper. He provided these in electronic form to the Advisor who
did not review the original paper copies. Publication of this paper was based on the purported
"streamlined method, the high overall yield (up to 88%), and the high ee." 36

        Although 14 separate examples of fabrication and falsification were alleged, the IC
focused on 2 of these allegations in depth. In the first, the IC found that the Subject falsified the
hardcopy of a NMR spectrum for compound 5 in Table 2 by pasting a resonance in one location
and removing another by "painting with white-out solution." The IC noted that the identification
block on the spectrum had been pasted over with a new block identifying it as compound 5 with
the unique spectrum number of the original (compound 7) still showing. The NMR facility
director obtained the original data files corresponding to the identification numbers; the data
retrieved for compound 5 did not match the spectrum reported in the Paper 1. The IC identified
"at least 11 cases" of similar cut-and-paste and white-out manipulations ofNMR spectra in
Paper 1, 37 evidenced by several "doctored printouts" corresponding to these spectra found in the
Subject's desk. 38

        The second allegation involved the falsification of the HPLC data supporting the claimed
high selectivity for one enantiomer (i.e., a high ee). The Committee relied substantially on the
testimony of the Advisor and the Student in concluding "that most of the ee values" the Subject
reported in Paper 1 are "suspect." 39 The Advisor and the Student each stated their "belief' that



35
   Generally, Tab 5 at 59-60.
36
   Tab 5 at 59.
37
   Tab 5 at 59.
38
   Tab 5 at 60.
39
   Tab 5 at 60.


                                                                                                    7
SENSITIVE                                                                       SENSITIVE


the Subject altered the conditions for the experimental separation. 40 The Committee identified a
specific example to corroborate the Advisor's and Student's beliefs. The Committee found
evidence of cut-and-paste manipulations on the chromatograph for one of the title compounds, in
part supported by the original hard-copy with the cut-and-paste manipulations found in the
Subject's desk.

         The Committee did not make an explicit finding of falsification or fabrication regarding
the HPLC data. For Paper 1, the Committee noted the goals of the research were to find a "more
efficient route" to the products with "a remarkably high ee." 41 However, it found generally that
"falsification and fabrication ofthe data by [the Subject] subverted both of these goals, because it
is unlikely that the desired products were made and that the ee values were incorrectly assessed
for some and perhaps most of the reactions." 42 The Committee found that these actions were a
significant departure from the accepted practices of the relevant research community and that the
Subject acted intentionally (purposefully).

         Paper 2. 43 The Committee described Paper 2 as a continuation ofthe work reported in
Paper 1 with "more experimental detail and a broader range of reactions." 44 Again the
Committee found that the Subject was the primary person who conducted the experiments and
assembled the data for publication. The Committee specifically described the NMR spectra
(proton and carbon-13) and HPLC chromatogram for compound 27b as an example of the data
falsification and fabrication in Paper 2. The Committee did not produce a comprehensive list of.
all the affected data. Instead it found "the identity of the data falsification methods used [in both
papers] demonstrates a pattern of purposeful deception. It brings into question the large amount
of data presented in both publications." 45 As with Paper 1 the Committee found the Subject's
actions to be a significant departure from the accepted practices of the relevant research
community.

        NIH Proposal. 46 The Committee described the NIH Proposal as focused on the use of
the synthetic route reported in Paper 1 and Paper 2 for the development of new molecules of
therapeutic value. In addition to the specific examples of falsification and fabrication the
Committee described for those papers and the NSF Proposal (below), the Committee identified
an example specific to the NIH Proposal that was integral to a "key proof-of-principle synthesis"
and based on the procedures reported in Paper 1 and Paper 2. 47 The Committee found that the
Subject intentionally falsified the supporting NMR spectra for compound 22 using the same cut-
and-paste methods described above. The Committee concluded that the Subject was aware that
the NIH Proposal, if successful, would have provided salary funds for him. In addition, the
Subject "would have had ample opportunity to review the grant proposal before it was submitted
to correct errors or recommend removal of questionable data." 48 The Committee found that the

40
   Tab 5 at 60.
41
   Tab 5 at60.
42
   Tab 5 at 60.
43
   Generally, Tab 5 at 60-61.
44
   Tab 5 at 61.
45
   Tab 5 at 61.
46
   Generally, Tab 5 at 61 - 62.
47
   Tab 5 at 59.
48
   Tab 5 at 62.


                                                                                                    8
SENSITIVE                                                                     SENSITIVE


Subject's actions were a significant departure from the accepted practices of the relevant
research community and that the Subject acted intentionally (purposefully).

       NSF Proposal. 49 The Committee described the NSF Proposal as focused on a general
understanding of "the underlying basis for the reactivity" in contrast to the application of the
approach in the NIH Proposal. 50 The role of the Lewis acid and the influence of the catalyst's
geometry were of specific interest in the proposed work. In the preliminary work it was the
choice of Lewis acid that had been attributed as the factor increasing efficiency over other
published procedures. The Committee noted again that the proposal relied on Paper 1 and
Paper 2 as justification for the work.

        As an example the Committee selected compounds 30 and 31 for closer examination.
The Committee found that the NMR spectra supporting the successful synthesis of both
compounds suffered from the same cut-and-paste falsification as described in each of the
examples above. The Committee relied on the physically altered hardcopies of the spectra found
in the Subject's desk. The Committee found that the Subject's actions were "deliberate" and
with the knowledfe that the NSF Proposal, if successful, would provide salary funding for his
                 5
continued work. The Committee found that the Subject's actions were a significant departure
from the accepted practices of the relevant research community and that the Subject acted
intentionally (purposefully).

        Presentations. 52 The Committee identified several presentations given by either the
Advisor or the Subject that included the falsified and fabricated data. The Subject presented the
data at the University Graduate Research Symposium in 2010. The Advisor presented the data in
a poster at a Gordon Research Conference and in an oral presentation at the American Chemical
Society National meeting in that same year. The Advisor also presented the work in a regional
meeting from which the University recruits graduate students for the department. The
Committee found that the retractions of the two papers upon which these presentations were
based "tarnished" the reputation of the Advisor and the University. 53

        In summary, the Committee concluded that the Subject's actions over the two years
constituted a pattern of serious, knowing and intentional research misconduct. The Committee
concurred with the conclusion in the inquiry that there was no support for the allegations against
the Advisor and therefore no support for the defense the Subject offered in his initial emails to
the RIO. The Committee noted that the Subject never denied the allegations of fabrication and
falsification in these emails.

                                    The University's Actions

       The University made a finding of academic misconduct with respect to both papers, both
proposals, and the presentations. It recommended that the actions be taken to formally dismiss

49
   Generally, Tab 5 at 62.
50
   Tab 5 at 62.
51
   Tab 5 at 62.
52
   Generally, Tab 5 at 62-63.
53
   Tab 5 at 62.


                                                                                                   9
SENSITIVE                                                                     SENSITIVE


the Subject from the University. 54 Because the Subject had already left the University, no
further actions were taken.

                             OIG's Investigation and Assessment

       A finding of research misconduct requires that: (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a
preponderance of the evidence. 55

        As noted above, we had general concerns about the integrity of the evidence because it
was not secured in a timely manner. The Advisor and Director both failed to follow the formal
University process for allegations of misconduct when confronted with the Subject's admissions.
With respect to the Advisor, the Committee noted the Advisor's inexperience as an Assistant
Professor as an explanation. 56 After the Advisor announced the allegation to his research group,
a group member informed the Chair, and the Chair initiated the formal process. Despite the
delay in securing the evidence and the lack of confidentiality regarding the allegation, we
conclude there is sufficient corroboration among documentary and testimonial evidence to
support the University's conclusions. The Committee made numerous attempts to communicate
with the Subject and received no responses. Accordingly, we conclude that the University
investigation was accurate, complete, and followed reasonable procedures.

                                             The Act

        We concur with the University that the evidence, including the Subject's admissions,
supports finding falsification and fabrication in the NSF proposal, which appears as unpublished
data as well as data and results incorporated from Paper 1 and Paper 2. Specifically, the Subject
falsified NMR spectra using manual cut-and-paste and white-out techniques to support the
synthesis of compounds. The falsified spectra support his fabricated reports that he prepared
those compounds. Although the Student subsequently prepared those compounds by the
Subject's methods, there is no evidence to support finding that the Subject synthesized them
himself. The HPLC chromatograms on which the Subject used the same manual cut-and-paste
and white-out techniques are falsified data that support the high ee claimed for the desired
enantiomer. It is the high ee relative to that previously published by another research group that
increased the value of the resulting publications and scientific merit of the proposals. The
Subject had a reasonable expectation that the results would be incorporated into the proposals
and that if awarded funding for his salary would be available.

        We concur with the University that it is a significant departure from the accepted
practices of any research community to fabricate and falsify experimental data and results for use
in a proposal for NSF funding. It is also a significant departure to participate actively in the
further use of the published falsified and fabricated data and results as prior work in any NSF
proposal.

54
   Tab 5 at47.
55
   45 C.F.R. 689.2(c).
56
   Tab 5 at 66.


                                                                                                   10
SENSITIVE                                                                       SENSITIVE




         We concur with the University that the evidence supports fmding that the Subject's
falsification and fabrication were intentional (purposeful). The literal cutting with scissors and
pasting of resonances on NMR spectra along with whiting out resonances by painting on liquid
correction fluid followed by scanning into a digital format are in the aggregate intentional
deceptive actions. Regardless of the underlying motivation, the Subject accepted an offer for
employment that necessitated his completing his degree by the end of the 2011 academic year.
In doing so he imposed his own deadline for completing his degree when the Advisor had
submitted both the NSF Proposal and the NIH Proposal, both of which requested salary support
for the Subject. The facts support the University's conclusion that the Subject had all the
requisite skills and abilities to have completed the work but chose instead to falsify and fabricate
data and results. Therefore, the evidence supports finding that the Subject acted intentionally
(purposefully).

                                         Standard o(Proo(

        The preponderance of the evidence demonstrates that the Subject falsified and fabricated
NMR spectra and HPLC chromatograms to support his reported synthetic approach for obtaining
high selectivity among enantiomers. The Subject's lack of participation in the investigation
process following his admissions necessitates reliance almost exclusively on the testimony of the
Advisor and the Student. Their testimony is corroborated to a large extent by the documentary
evidence and the testimony of the Director and Chair.

                                OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 57

                                            Seriousness

        The Subject's falsification and fabrication are not only misconduct in his local academic
community related to completing his Ph.D. but also misconduct in the broader scientific
community. Although a competing group had published a similar synthetic approach before the
Subject and the Advisor published Paper 1, the falsified and fabricated work represented a
significant advance over their competitor's method. The advances included a more efficient
synthetic approach and a higher degree of enantio-selectivity, both highly valued characteristics
in industrial processes. Although the Student later validated the synthetic approach with a lower

57
     45 C.F.R. 689.3(b).


                                                                                                  11
SENSITIVE                                                                          SENSITIVE


but significant selectivity, the Subject's falsification and fabrication required the investment of
additional time and resources to repeating the work. Furthermore the reputational damages
associated with his actions extend not only to the Advisor who is nearing his tenure review, but
to the research group and University as well.

                            Degree to which the Act was Intentional (Purposeful)

        The Subject's limited participation in the investigation consists of emails the RIO
received during her initial assessment of the allegations. The Subject did not deny the
allegations against him and instead counter-alleged misconduct by the Advisor for knowingly or
intentionally using the data. The facts available not only support dismissing the counter-
allegations but also demonstrate the Subject's failure to accept responsibility for his own actions
and admitted conduct.

                                              Pattern o[Behavior

         The Subject's research.misconduct occurred months after a previous incident of similar
falsification that, when confronted, he admitted to the Advisor. The Advisor chose to give the
Subject a second chance to do the work correctly. 5 8 The Subject's conduct not only continued
but also took on an additional element of deceptiveness in frustrating the Student's attempts to
replicate the results.

                                         Impact on the Research Record

        The Subject's falsified and fabricated data appeared in two publications (Paper 1 and
Paper 2) which the Advisor later retracted. Both papers appear in the online journals with
markings to indicate that they have been retracted and provide reference to the retraction notices.
The Supporting Information is still available online for Paper 1 but not Paper 2, reflecting a
difference in approach between the respective journals. Although the Subject's presentation of
the work was limited to a research group meeting, the Advisor, in reliance on the Subject's work,
presented the results at two large meetings and as part of departmental recruitment activities.
Retraction or correction of oral presentations of falsified and fabricated materials is a more
difficult proposition. We have not identified any associated conference proceedings that require
retraction.

                                         Other Relevant Circumstances

        The Subject received training in the responsible conduct of research (RCR) while at the
University; it was a departmental requirement. The Advisor supplemented this training with
group discussions of publicized cases of research misconduct, and the Subject served as the
Advisor's teaching assistant in a course that covered RCR elements. Therefore, the Subject had
sufficient instruction and exposure to the research community's expectations for handling data.




58
     Tab 5 at 66, Tab 15 at 1872 and 1928.


                                                                                                      12
SENSITIVE                                                                      SENSITIVE


                                               Recommendations 59

Based on the evidence, OIG recommends that NSF:
       • Send the Subject a letter of reprimand notifying him that NSF has made a finding of
           research misconduct. 60
       • Require the Subject to certify to the Assistant Inspector General for Investigations
           (AlGI) his completion of a responsible conduct of research training program and
           provide documentation ofthe program's content within 1 year ofNSF's finding. 61
           The instruction should be in an interactive format (e.g., an instructor-led course) and
           specifically include data falsification and fabrication.
       • Debar the Subject for 5 years. 62

For a period of 5 years immediately following the debarment period:
       • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
           NSF. 63
       • Require for each document (proposal, report, etc.) to which the Subject contributes
           for submission to NSF (directly or through his institution),
               o the Subject to submit a contemporaneous certification to the AlGI that the
                   document does not contain plagiarism, falsification, or fabrication. 64
               o the Subject to submit contemporaneous assurances from a responsible official
                   of his employer to the AlGI that the document does not contain plagiarism,
                   falsification, or fabrication. 65

                    The Subject's Response to OIG's Draft Investigation Report

        We made several attempts to contact the Subject through his last known addresses to
obtain his comments on our draft investigation report. 66 We sent emails to both his last known
personal and school email accounts and received delivery confirmations. We confirmed that his
last known phone number is no longer active. We have received no response from the Subject.

        At our request, the University provided the Subject's last known address in his home
country from the Subject's admission records. We attempted to deliver a copy of our draft
report to the Subject, however the courier service has reported the letter we sent was
undeliverable.




59
   45 C.F.R. 689.6(f) and 689.9(c)(2)(ii).
60
   A Group I action 45 C.P.R. 689.3(a)(l)(i).
61
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
62
   A Group ill action 45 C.F.R. 689.3(a)(3)(iii).
63
   A Group ill action 45 C.F.R. 689.3(a)(3)(ii).
64
   This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
65
   A Group I action 45 C.P.R. 689.3(a)(l)(iii).
66
   Tab 21.


                                                                                                 13
